CR-B-02-02




                               PROCUREMENT ADMINISTRATION AT
                                   BROOKHAVEN NATIONAL
              AUDIT                    LABORATORY
             REPORT




                                          AUGUST 2002




  U.S. DEPARTMENT OF ENERGY
 OFFICE OF INSPECTOR GENERAL
   OFFICE OF AUDIT SERVICES
                   U. S. DEPARTMENT OF ENERGY
                         Washington, DC 20585

                             August 22, 2002



MEMORANDUM FOR THE ACTING MANGER, CHICAGO OPERATIONS OFFICE

FROM:                    Rickey R. Hass, Director (Signed)
                         Science, Energy, Technology,
                          and Financial Audits
                         Office of Audit Services
                         Office of Inspector General

SUBJECT:                 INFORMATION: Audit Report on "Procurement Administration at
                         Brookhaven National Laboratory"

BACKGROUND

In May 1999, the Office of Inspector General evaluated certain aspects of Brookhaven National
Laboratory's (Brookhaven) procurement function and found that Brookhaven had not fully
enforced the terms of its subcontracts for health physics technicians. This audit, Health Physics
Technician Subcontracts at Brookhaven National Laboratory (ER-B-99-08, May 1999),
recommended that Brookhaven strengthen its administration of subcontracts. Department of
Energy (Department) management concurred with our recommendations and directed
Brookhaven to implement improvements. To gauge the sufficiency of corrective actions, we
initiated this follow-on audit at the request of the Brookhaven Area Office to determine whether
Brookhaven administered procurements in accordance with applicable regulations and its
contract.

RESULTS OF AUDIT

While Brookhaven had initiated certain improvements, it did not always properly administer
procurements. Specifically, Brookhaven did not always:

     •   Provide the Department with required advance notice for certain procurement actions,
         including those that exceeded specified dollar thresholds;

     •   Prepare adequate justification for non-competitive procurements or exemptions from
         requirements of the Buy American Act; and,

     •   Accurately maintain procurement data on small business contracting and small
         purchases.

Problems with procurement administration occurred because Brookhaven had not provided
adequate training for acquisition staff, implemented appropriate control measures, and
effectively implemented an assessment and performance measurement program. As a
consequence, neither the Department nor Brookhaven had full assurance that competition was
adequate and that procurement awards provided the best value and were in the best interests of
the government. Additionally, inaccuracies in its procurement database contributed to
Brookhaven overstating its small business contracting activity by about $10 million in Fiscal
Year (FY) 2000 and $12 million in FY 2001.
                                               2


The report recommends that the Manager, Chicago Operations Office, direct Brookhaven to
give priority attention to performing a series of corrective actions and incorporate completion
of the actions into a specific performance measurement that must be attained within the next
fiscal year. The report also recommends that the Manager establish performance measures to
monitor the quality and effectiveness of Brookhaven's procurement function.

MANAGEMENT REACTION

Management concurred with the findings and recommendations and stated that Brookhaven
has been working to improve its procurement system and has begun initiating changes that
will comply with the recommendations. Management comments have been included in
Appendix 1.
PROCUREMENT ADMINISTRATION AT BROOKHAVEN NATIONAL
LABORATORY


TABLE OF
CONTENTS


               Overview

               Introduction and Objective ....................................................................1

               Conclusions and Observations ...............................................................1


               Improvements Needed for Procurement Administration

               Details of Finding ..................................................................................3

               Recommendations ..................................................................................7


               Appendices

               Management Response ..........................................................................8

               Scope and Methodology ......................................................................10
Overview

INTRODUCTION AND   The Department of Energy's (Department) Brookhaven National
OBJECTIVE          Laboratory (Brookhaven) is a multi-program research laboratory that
                   conducts basic and applied research in the physical, biomedical, and
                   environmental sciences, as well as in energy technologies.
                   Brookhaven's broad mission is to produce excellent science in a safe,
                   sound manner. At the center of Brookhaven's research are complex,
                   leading edge, user-oriented research facilities such as the Relativistic
                   Heavy Ion Collider and the National Synchrotron Light Source.
                   Brookhaven Science Associates, a nonprofit corporation, operates
                   Brookhaven under a contract administered by the Department's Chicago
                   Operations Office and its onsite Brookhaven Area Office. In carrying
                   out its mission, Brookhaven contracts for a wide array of goods and
                   services, from routine parts and supplies to sophisticated scientific
                   equipment and technical support. To meet its needs, Brookhaven
                   awards about $150 million in subcontracts and purchases each year.

                   In May 1999, the Office of Inspector General evaluated certain aspects
                   of Brookhaven's procurement function and found that Brookhaven had
                   not fully enforced the terms of its subcontracts for health physics
                   technicians. This audit, Health Physics Technician Subcontracts at
                   Brookhaven National Laboratory (ER-B-99-08, May 1999),
                   recommended that Brookhaven strengthen its administration of
                   subcontracts. Department management concurred with our
                   recommendations and directed Brookhaven to implement
                   improvements. To gauge the sufficiency of corrective actions, we
                   initiated this follow-on audit at the request of the Brookhaven Area
                   Office to determine whether Brookhaven administered procurements in
                   accordance with applicable regulations and its contract.


CONCLUSIONS AND    While Brookhaven had initiated certain improvements, it did not always
OBSERVATIONS       properly administer procurements. Specifically, Brookhaven did not
                   provide the Department with required advance notice for certain
                   procurement actions, including those that exceeded specified dollar
                   thresholds. In addition, justifications for noncompetitive procurements
                   or for exemptions from requirements of the Buy American Act were not
                   always prepared or were inadequate. Also, Brookhaven did not
                   accurately maintain procurement data on small business contracting and
                   small purchases. In general, Brookhaven is required to manage its
                   procurement activities in accordance with established procedures that




Page 1                                                        Introduction and Objective
         incorporate Departmental regulations. Problems with procurement
         administration occurred because Brookhaven had not provided adequate
         training for acquisition staff, implemented appropriate control
         measures, and effectively implemented an assessment and performance
         measurement program. As a consequence, neither the Department nor
         Brookhaven had full assurance that competition was adequate and that
         procurement awards provided the best value and were in the best
         interests of the government. Additionally, inaccuracies in its
         procurement database contributed to Brookhaven overstating its small
         business contracting activity by about $10 million in Fiscal Year (FY)
         2000 and $12 million in FY 2001.

         Management should consider these issues when preparing its yearend
         assurance memorandum on internal controls.



                                                    (Signed)
                                             Office of Inspector General




Page 2                                        Conclusions and Observations
Improvements Needed for Procurement Administration

Problems with       Brookhaven did not always meet approval, notification, and
Procurement         justification requirements when awarding subcontracts and making
Administration      purchases. Inaccuracies in Brookhaven's procurement database
                    contributed to a significant overstatement of its small business
                    contracting activity and may lead to the improper documentation of
                    certain purchases.

                                          Approval and Notification

                    Despite specific requirements to do so, Brookhaven did not always
                    request the Department's approval or provide notification for high value
                    or non-competitive procurements. For example, approval was not
                    obtained for two of the three procurements we reviewed valued in
                    excess of $10 million. In these cases, Brookhaven incorrectly notified
                    the Department that the dollar value of one of the procurements was to
                    be $5 million while the other would not exceed $800,000. Adequate
                    advance notice was also not provided for 20 of 44, or 45 percent, of the
                    non-competitive procurements valued over $100,000 that we reviewed.
                    For 14 of these non-competitive awards, no notice was given, and the
                    estimated dollar value for the remaining 6 procurements was
                    significantly understated.

                                          Adequacy of Justifications

                    Brookhaven did not always justify non-competitive procurements and
                    exemptions from the Buy American Act. For 28 of 94, or 30 percent, of
                    the non-competitive procurements we evaluated, justification had not
                    been prepared or was inadequate to determine whether the decision to
                    limit competition was appropriate. We also noted that documentation
                    to support Brookhaven's rationale for determining that 4 of 17 foreign
                    procurements we reviewed were exempt from the Buy American Act
                    had not been prepared. Without documenting justifications,
                    Brookhaven cannot demonstrate that competition was adequate and that
                    the awards were in the best interest of the government.

                                        Reliability of Contracting Data

                    Our examination of Brookhaven's procurement database disclosed a
                    number of misclassifications and inaccuracies that led to a significant
                    overstatement of small business contracting activities and may have
                    impacted documentation requirements for certain procurements.
                    Specifically, we identified at least 180 vendors that were
                    inappropriately classified as small businesses in Brookhaven's database.

Page 3                                                                    Details of Finding
                          These included multi-national corporations, universities, foreign
                          companies, and non-profit organizations that clearly did not meet
                          Federal requirements for classification as small businesses.
                          Procurements from these organizations accounted for about $10 million
                          of the $77 million of procurements reported by Brookhaven as having
                          been made to small businesses in FY 2000 and about $12 million of the
                          $64 million reported in FY 2001. We also observed that
                          117 procurements were misclassified as small dollar value awards
                          "under $25,000" that were subject to minimal or reduced justification
                          and supporting documentation requirements. The misclassification of
                          24 procurements was potentially significant and ranged in actual value
                          from $100,000 to $526,000. Improper classification as a small dollar
                          value award may allow higher value procurements to be processed
                          without appropriate justification or supporting documentation.


Contract Administration   Department of Energy Acquisition Regulations and Brookhaven's
and Training              contract require that Brookhaven's procurement process and methods be
Requirements              fully documented, consistently applied, and approved by the
                          Department. As required by the Department, Brookhaven's
                          procurement procedures prescribed dollar thresholds for notifying and
                          justifying certain actions and, in some cases, obtaining approval prior to
                          award. According to its Procurement Operations Manual, Brookhaven
                          must obtain the Department's approval before issuing any subcontracts
                          or purchase orders in excess of $10 million and provide advance notice
                          for non-competitive procurements that will exceed $100,000 in value.
                          In addition, for non-competitive procurements greater than $25,000, a
                          justification is required as to why such action would be in the best
                          interest of the government. Brookhaven was also required to justify
                          exemptions from the Buy American Act whenever supplies and services
                          were obtained from other than domestic sources.

                          Following our prior audit, the Department directed Brookhaven
                          management to take certain procurement related corrective actions. In
                          addition to being required to correct each of the problems described in
                          our report, Brookhaven agreed to provide training to technical
                          representatives involved with procurements. Brookhaven committed to
                          provide such training by December 31, 2000.


Need for Management       Brookhaven had not provided adequate training for acquisition staff,
Attention                 implemented appropriate control measures, and effectively
                          implemented an assessment and performance measurement program.



Page 4                                                                          Details of Finding
         Specifically, Brookhaven did not provide sufficient training for staff
         members with procurement related duties. Brookhaven also had not
         implemented controls to ensure that Department approvals were
         obtained and award notifications were routinely provided to the
         Department. Additionally, management did not perform periodic
         validations to ensure the accuracy of data contained in its procurement
         database.

                              Training for Acquisition Staff

         Brookhaven had not provided adequate training for 61 staff members
         with acquisition related duties. For example, we identified 13 technical
         representatives who had not received training as of December 31, 2000,
         a deadline established by Brookhaven to correct weaknesses reported
         in our May 1999 audit. Of these, 10 still had not received training as of
         December 31, 2001. We also noted that Brookhaven did not have a
         plan to provide periodic training to update the procurement knowledge
         and skills of technical representatives. The remaining 48 individuals
         that had not been properly trained included project managers, division
         heads, and department administrative staff charged with the approval
         and administration of procurements through signature authority,
         requisitioning, budgeting, work control and quality assurance.
         Although not included in the original training agreement with the
         Department, these administrative functions are an integral part of the
         procurement process and procurement training for these functions will
         help to ensure effective administration of procurements. Providing
         employees with initial and update training should increase awareness
         of requirements and help to eliminate or minimize the problems
         observed during this audit.

                     Performance Management and Self-Assessment

         We also observed that Department and Brookhaven management had
         not developed and implemented performance measures and had not
         performed an accurate self-assessment of its procurement function for
         FY 2001. The Department and Brookhaven did not have focused
         performance measures directed to correcting known weaknesses and
         improving overall performance of procurement administration.
         Furthermore, the contractor's performance of the FY 2001 self-
         assessment of its procurement function, the Procurement Balanced
         Scorecard, was inaccurate in that it did not report the extent of
         problems described in this report. The lack of specific performance




Page 5                                                         Details of Finding
                       measures and an effective self-assessment program deprived the
                       Department and Brookhaven of important tools essential to improving
                       procurement administration.


Reliability of the     Because of weaknesses described in this report, the Department lacks
Procurement Function   assurance that it can place full reliance on Brookhaven's procurement
                       function. Brookhaven cannot always demonstrate that procurements
                       were adequately competed, that awards provided the best value and
                       were in the best interests of the government, and that exemptions from
                       the Buy American Act were justified. Without adequate review and
                       approval information, and justification for non-competitive
                       procurements or exemptions from the Buy American Act, there was
                       little assurance that lower-priced subcontractors and vendors were
                       considered or that foreign procurements were appropriate.
                       Additionally, inaccuracies in its procurement database contributed to
                       Brookhaven overstating its small business contracting activity by about
                       $10 million in FY 2000 and $12 million in FY 2001. Without proper
                       training for procurement personnel and implementation of appropriate
                       performance measurement programs, the Department will continue to
                       be vulnerable to the same or similar procurement administration related
                       problems.




Page 6                                                                     Details of Finding
RECOMMENDATIONS   We recommend that the Manager, Chicago Operations Office, direct
                  Brookhaven to give priority attention to the following actions and
                  incorporate completion of these actions into a specific performance
                  measurement that must be attained within the next fiscal year:

                     (1) Adhere to approval, notification, and justification requirements;

                     (2) Correct its procurement database and implement controls to
                         ensure the accuracy of data and periodically validate the
                         integrity of data;

                     (3) Provide initial and periodic training to all personnel involved in
                         its procurement process; and,

                     (4) Revise its reports of small business activities for FY 2000 and
                         FY 2001.

                  In addition, we recommend that the Manager establish performance
                  measures to monitor the quality and effectiveness of Brookhaven's
                  procurement function.




Page 7                                                                Recommendations
Appendix 1




Page 8       Management Response
Appendix 1 (continued)




Page 9                   Management Response
Appendix 2

              The audit was performed at Brookhaven (Upton, New York) from
SCOPE
              September 2001 to June 2002. The procurements selected for review
              were subcontracts and purchase orders active in FYs 2000 and 2001.


METHODOLOGY   To accomplish the audit objective, we:

                 •   Researched applicable laws, regulations, contract terms,
                     policies, procedures, and guidance relevant to Brookhaven's
                     procurements;

                 •   Interviewed the contracting officer and other Brookhaven Area
                     Office personnel responsible for monitoring the procurement
                     function;

                 •   Interviewed management and personnel from Brookhaven's
                     Division of Procurement and Property Management and from
                     various Brookhaven departments; and,

                 •   Reviewed an initial random sample and additional judgmentally
                     selected Brookhaven procurements.

              We focused the audit on selected aspects of procurement
              administration. Specifically, we reviewed whether Brookhaven
              obtained required Department approvals, provided advance notice to the
              Department for impending procurements, and adequately justified non-
              competitive procurements and exemptions from the Buy American Act.
              In addition, we reviewed Brookhaven's training of personnel involved
              with administering procurements and assessed the accuracy of
              Brookhaven's procurement database.

              The audit was performed in accordance with generally accepted
              Government auditing standards for performance audits. It included
              tests of internal controls and compliance with laws and regulations to
              the extent necessary to satisfy the audit objective. Because our audit
              was limited, it would not necessarily have disclosed all internal control
              deficiencies that may have existed at the time of our audit. In
              performing this audit, we assessed the accuracy of data generated from
              Brookhaven's procurement module of its PeopleSoft data-processing
              system.

              An exit conference was held with representatives of Brookhaven Area
              Office and Brookhaven on July 10, 2002.


Page 10                                                     Scope and Methodology
                                                                           IG Report No. CR-B-02-02

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer
    friendly and cost effective as possible. Therefore, this report will be available
       electronically through the Internet at the following alternative addresses:


             Department of Energy Office of Inspector General Home Page
                               http://www.ig.doe.gov


           Your comments would be appreciated and can be provided on the
                  Customer Response Form attached to the report.
